No. 19-847

 

IN THE

Supreme Court of the United States

JONATHAN REISMAN,
Petitioner,
Vv.
ASSOCIATED FACULTIES OF THE UNIVERSITY
OF MAINE, et al.,
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the First Circuit

AMICUS CURIAE BRIEF OF
THE FAIRNESS CENTER
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,363 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 5, 2020.

 

Colin Casey Hog:
Wilson-Epes Primting Co., Inc.
